September 22, 2010

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Transmittal of Agreed-Upon Procedures Report – Independent Report on
         Employee Benefits, Withholdings, Contributions, and Supplemental
         Semiannual Headcount Reporting Submitted to the Office of Personnel
         Management (Report Number FT-AR-10-013)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
10BD010FT000). The report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed agreed-upon procedures in accordance
with generally accepted government auditing standards and attestation standards
established by the American Institute of Certified Public Accountants. We performed the
procedures solely to assist the OPM in verifying employee withholdings and employer
contributions reported on the Report of Withholdings and Contributions for Health
Benefits, Life Insurance and Retirement for three selected payroll periods. We also
verified information presented in the Supplemental Semiannual Headcount Report for
September 2009 and March 2010.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, please contact John Cihota, deputy assistant inspector general for financial
accountability, or Lorie Nelson, director, Financial Reporting, at 703-248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Assistant Inspector General
 for Audit

Attachments
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



cc: Joseph Corbett
    Anthony J. Vegliante
    Stephen J. Nickerson
    Jean Parris
    Corporate Audit and Response Management




                                                   2
September 22, 2010

HONORABLE PATRICK E. MCFARLAND
INSPECTOR GENERAL
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

SUBJECT: Agreed-Upon Procedures Report – Independent Report on Employee
         Benefits, Withholdings, Contributions, and Supplemental Semiannual
         Headcount Reporting Submitted to the Office of Personnel Management
         (Report Number FT-AR-10-013)

We performed the procedures the inspector general and the chief financial officer of the
U.S. Office of Personnel Management (OPM) agreed upon. We performed the
procedures solely to assist the OPM in verifying employee withholdings and employer
contributions reported in the Report of Withholdings and Contributions for Health
Benefits, Life Insurance and Retirement for the payroll periods ending August 28, 2009;
February 26, 2010; and April 9, 2010; and the enrollment information reported in the
Supplemental Semiannual Headcount Report for September 2009 and March 2010.
See Appendix A for additional information about this engagement and Appendix B for a
description of the procedures.

Conclusion

Generally, we were able to verify the employee withholdings, employer contributions,
and enrollment information reported and transferred to the OPM for health benefits, life
insurance, and retirement. However, we identified one reportable issue for two
employees based on OPM procedures.

Unverified Life Insurance Elections1

We identified differences between life insurance election information in payroll records2
and the Life Insurance Election form for two employees of 25 reviewed as shown in the
following table:




1
    Procedure Number 2.i.
2
    Notification of Personnel Action form.


           This report has not yet been reviewed for release under FOIA or the Privacy Act.
           Distribution should be limited to those within the Postal Service with a need to
           know.
Independent Report on Employee Benefits, Withholdings, Contributions,                                     FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                                  Life Insurance Election Differences
        Employee                     Per Payroll Records                     Per Life Insurance Election Form
                          Basic                                              Basic
             A
                          Additional Coverage/5 Times Basic Pay              Family Coverage/1 Multiple
                          Basic
             B                                                                 No form on file
                          Standard $10,000

The Life Insurance Election forms are the original source document and initiate
withholdings and contributions from payroll records. Additionally, the OPM requires the
agency to keep the form on file as a permanent record. However, we could not confirm
life insurance elections with the original source document because the Life Insurance
Election forms were inadvertently lost, misfiled or destroyed.3 We did verify that correct
withholdings and contributions were paid according to the processed Notification of
Personnel Action.4 Additionally, the Postal Service contacted the employees and
confirmed current life insurance elections per the payroll records were valid.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; and the headcount report of the Postal Service.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that we would have
reported to you.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions, please contact John Cihota, deputy assistant inspector
general for financial accountability, or Lorie Nelson, director, Financial Reporting, at
703-248-2100.

      E-Signed by Tammy Whitcomb
    VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Assistant Inspector General
 for Audit

Attachments


3
 We were able to find Life Insurance Election forms for the other individual’s reviewed.
4
 Based on the Life Insurance Election form, the Postal Service initiates a Notification of Personnel Action to start or
modify life insurance withholdings.




                                                           2
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



cc: Nancy Kichak
    Michael R. Esser
    William W. Scott, Jr.




                                                   3
Independent Report on Employee Benefits, Withholdings, Contributions,                              FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service Information Technology and Accounting Service Center in Eagan,
MN, is responsible for calculating, disbursing, and reporting employee withholdings and
Postal Service contributions for health benefits, life insurance, and retirement. As of
March 5, 2010, the Postal Service employed more than 688,900 people (approximately
581,100 with benefits).

During each payroll period reviewed,5 the Postal Service withheld more than $83 million
and contributed about $299 million toward benefits. The Postal Service transmitted
these funds to the OPM via the Retirement and Insurance Transfer System (RITS) and
prepared the Report of Withholdings and Contributions for Health Benefits, Life
Insurance and Retirement for each payroll period detailing the amounts associated with
each benefits category. Additionally, the Postal Service submitted to the OPM the
Supplemental Semiannual Headcount Report detailing the number of employees
associated with each benefit category for September 2009 and March 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assist the OPM in verifying:

       Employee withholdings and employer contributions reported in the Report of
        Withholdings and Contributions for Health Benefits, Life insurance and
        Retirement.

       Enrollment information reported in the Supplemental Semiannual Headcount
        Report.

To accomplish our objective, we applied the procedures included in Appendix B to the
payroll periods ending August 28, 2009, and February 26, 2010, coinciding with the
Supplemental Semiannual Headcount Report for September 4, 2009, and March 5,
2010, respectively. We randomly selected another payroll period, which ended April 9,
2010, for additional testing.

We confirmed RITS data by verifying payroll source documents. For a sample of 45
employees,6 we reviewed personnel documents to verify salaries, retirement, and the
election or non-election of health benefits and life insurance. For all employees, we
independently calculated employee withholdings, Postal Service contributions, and
enrollment information for health benefits, life insurance, and retirement. We compared

5
  This timeframe included approximately 64,900 employees who declined health benefits and approximately 1,400
employees who waived life insurance coverage.
6
  The universe for sample selection does not include approximately 155,700 employees who elected health benefits
and basic life insurance only (no optional coverage elected).




                                                        4
Independent Report on Employee Benefits, Withholdings, Contributions,        FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



the results to actual employee withholdings and Postal Service contributions submitted
to the OPM to determine whether differences existed.

We conducted this engagement from May through September 2010 in accordance with
the American Institute of Certified Public Accountants and generally accepted
government auditing standards. The sufficiency of the procedures is solely the
responsibility of the inspector general and the chief financial officer of the OPM.
Consequently, we make no representation regarding the sufficiency of the procedures
described in Appendix B, either for the purpose for which this report has been
requested, or for any other purpose. We discussed our observations and conclusions
with management officials on September 17, 2010, and included their comments where
appropriate.

We relied on computer-generated data from the Postal Service’s payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the computer-
generated data. We determined that the data were sufficiently reliable for the purposes
of this report.




                                                   5
Independent Report on Employee Benefits, Withholdings, Contributions,                        FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management



PRIOR AUDIT COVERAGE

                             Report
      Report Title           Number          Final Report Date                    Report Results
 Independent Report       FT-AR-09-010      September 18, 2009          We verified employee
 on Withholdings and                                                    withholdings, employer
 Contributions for                                                      contributions, and enrollment
 Health Benefits, Life                                                  information reported and
 Insurance,                                                             transferred to the OPM for health
 Retirement, and                                                        benefits, life insurance, and
 Employee Headcount                                                     retirement. We did not identify
 Data                                                                   any errors or differences that
                                                                        exceeded the materiality limits
                                                                        the OPM established.
 Independent Report       FT-AR-08-013      September 12, 2008          Two discrepancies were
 on Withholdings and                                                    identified on the Supplemental
 Contributions for                                                      Semiannual Headcount Report:
 Health Benefits, Life                                                  aggregate base salaries for the
 Insurance,                                                             Civil Service Retirement System
 Retirement, and                                                        (CSRS) offset employees did not
 Employee Headcount                                                     accurately reflect the actual
 Data                                                                   salaries paid for the reporting
                                                                        period and the number of
                                                                        employees enrolled in the CSRS
                                                                        offset with no deductions made
                                                                        was incorrectly reported. We
                                                                        made no recommendations.
 Independent Report       FT-AR-07-013      September 20, 2007          Aggregate base salaries for the
 on Withholdings and                                                    CSRS offset employees in the
 Contributions for                                                      Supplemental Semiannual
 Health Benefits, Life                                                  Headcount Report did not
 Insurance,                                                             accurately reflect the actual
 Retirement, and                                                        salaries paid for the reporting
 Employee Headcount                                                     period. We made no
 Data                                                                   recommendations.




                                                   6
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management

                       APPENDIX B: AGREED-UPON PROCEDURES




                                                   7
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   8
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                   9
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  10
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  11
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  12
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  13
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  14
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  15
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  16
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  17
Independent Report on Employee Benefits, Withholdings, Contributions,   FT-AR-10-013
 and Supplemental Semiannual Headcount Reporting Submitted to the
 Office of Personnel Management




                                                  18
